                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

      Case Number: A-03080044
                                                                                  11           Page 1 of 1



           We received an allegation that a figure in a published paper1 was used in the recent NSF
           proposal2jointly submitted by the PI (subject 1) and three cePIs (subjects 2,3, and 4) without
           appropriate citation or attribution.

           Our review suggested that part of the figure ustd in the recent NSF proposal appeared to have
  I        been copied from the published figure. Further, our review of subject 1's earlier NSF proposal3
           showed a similar, although not identical, figure to that used in the recent NSF proposal.
           Consequently, we determined that, reasonably, it was subject 1 who was responsible for
           including this figure in the recent NSF proposal. Therefore, we decided to contacted subject 1
           first to ask about this matter.

           Subject 1, responding via email, explained that this was all a mistake. He said his former Post
           Doctoral Researcher (former researcher), whom he copied in his email response to us, prepared
           the figure that was used in the recent NSF proposal. Subject 1 did not blame the former
           researcher for what happened, but explained that he as the PI on the proposal, should have been
           more careful. He said that because the figure was not really necessary for the proposed NSF
           project, a fact we separately confirmed, he did not pay much attention to it. Subject 1 also
           provided a prior paper4he co-authored with the former researcher that contained a their own
           version of the figure that was similar to the figure used in the recent NSF proposal. He noted that
           this figure had been used for a long time (about 20 years) by researchers and it had become
           common knowledge. He said he would apologize to the primary author of the paper.

           Subject 1 apologized, via email, to the primary author of the paper:' We concluded that subject 1
           had been solely responsible for the inclusion of the figure in the NSF proposal. Further, although
           subject 1's action was a deviation from accepted practice, it was not a serious deviation.
           Therefore, this case is closed and no further action will be taken.




11'
  NSF OIG Form 2 (1 1/02)
                                                                                                                 '11
